                       U.S. Environmental Protection Agency                                             2006-S-00003

                                                                                                         May 30, 2006

                       Office of Inspector General


                       At a Glance

                                                                           Catalyst for Improving the Environment


Why We Did This Review            Congressional Request Regarding EPA Grants
                                  to the National Rural Water Association
In response to a congressional
request, the Office of
                                   What We Found
Inspector General examined
the execution of
                                  We found the following regarding the four questions we sought to answer:
Environmental Protection
Agency (EPA) grants awarded
                                  What environmental benefits result from the EPA grants to NRWA?
to the National Rural Water
Association (NRWA). To
                                      Under its grants, NRWA is not required to measure the environmental
address the request, we sought
                                      outcomes of the technical assistance activities it provides. As a result, the
to answer four specific
                                      environmental benefits could not be determined. EPA grants awarded to
questions.
                                      NRWA, after January 1, 2005, include outputs but do not link the outputs to
                                      environmental outcomes and measures.
Background
                                  What improvements can be made in NRWA’s administration of the
The NRWA is a non-profit          program?
organization that provides
technical assistance, training,       NRWA’s administration of the grants can be improved to more effectively
and legislative representation        meet the needs of rural water systems. The number of organizations eligible
to water providers serving            to perform work for NRWA can be expanded to include non-member
rural communities. NRWA is            organizations. Rather than distributing funds equally to all States, NRWA
a federation consisting of            could take into consideration the individual needs of rural water systems in
48 State associations                 each State in determining funding and the required activities and outputs.
representing 49 States. Since
October 2000, NRWA has            Are there other options for awarding some rural water assistance funds?
received over $70 million
from EPA to provide training          Rather than earmarking funds for NRWA, Congress has other options for
and technical assistance to           ensuring rural water systems receive needed assistance. Congress could
rural water systems.                  require EPA to award the grants through a competitive process. Congress
                                      could incorporate into the appropriation language requiring NRWA to award
                                      funds to technical assistance providers based on State needs. Another option
                                      would be to consolidate grants awarded to NRWA.

For further information,          How does NRWA develop white papers and policy positions?
contact our Office of
Congressional and Public              NRWA prepares white papers to address the challenges facing rural water
Liaison at (202) 566-2391.            systems. NRWA and its contractor determine the topics for the white papers.
To view the full report,
                                      The State associations’ participation is limited to the development of white
click on the following link:          paper and policy positions through their representatives on NRWA’s board of
www.epa.gov/oig/reports/2006/         directors. According to NRWA officials, non-Federal revenue (e.g.,
20060530-2006-S-00003.pdf             investments, member services, and other revenues) is used to finance the
                                      white papers.
